                                                  .".'-SBC&
                                                :)Ci
                                                  ~
                                                Wl"ts~~
                                                ~ IIIIII1~~
                                                  .~lvIS~!'-
                                     SOOAL         SECURITY
                                     Office of the Inspector General
MEMORANDUM
Date:   May 16,   2001                                                       Refer To:   ICN   31136-23-155

        Lar~ G. Massanari
To:     Acting Commissioner

          of Social   Security


        Inspector General


Subject:Performance Measure Review: Reliability of the Data Used to Measure the Accuracy of
       Earnings Posted (A-O3-00-10004)


        The attached final report presents the results of our audit. Our objective was to assess
        the reliability of the Social Security Administration's data used to measure the percent of
        earnings posted correctly in Fiscal Year 1999. Measuring the percent of earnings
        posted correctly is one of the performance indicators developed to meet the
        requirements of the Government Performance and Results Act of 1993.

        Please comment within 60 days from the date of the memorandum on corrective action
        taken or planned on each recommendation. If you wish to discuss the final report,
        please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
        General for Audit, at (410) 965-9700.




                                                               James G. Huse, Jr.



         Attachment
           OFFICE OF

    THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION



  PERFORMANCE MEASURE REVIEW:

   RELIABILITY OF THE DATA USED

    TO MEASURE THE ACCURACY

       OF EARNINGS POSTED


    May 2001      A-03-00-10004





 AUDIT REPORT

                                      Mission

We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration  officials, the Congress, and the public.

                                     Authority

The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  0   Conduct and supervise independent and objective audits and

      investigations relating to agency programs and operations.

  o   Promote economy, effectiveness, and efficiency within the agency.

  0   Prevent and detect fraud, waste, and abuse in agency programs and

      operations.

  0   Review and make recommendations        regarding existing and proposed

      legislation and regulations relating to agency programs and operations.

  0   Keep the agency head and the Congress fully and currently informed of

      problems in agency programs and operations.


  To ensure objectivity,   the IG Act empowers   the IG with:

  o   Independence to determine what reviews to perform.
  0   Access to all information necessary for the reviews.
  0   Authority to publish findings and recommendations    based on the reviews.

                                       Vision

By conducting independent and objective audits, investigations,  and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                  ~ SECV
                                                :)Ci
                                                  ~
                                                W/ts~~
                                                \     1IIIII1~!
                                                    "'lsTV

                                     SOCIAL          SECURITY
                                     Office of the Inspector General
MEMORANDUM
Date:   May 16,2001                                                         Refer To:
        Larry G. Massanari
To:
        Acting   Commissioner
         of Social   Security

From:
        Inspector General


Subject:Performance  Measure Review: Reliability     of the Data Used to Measure   the Accuracy   of
        Earnings Posted (A-03-00-1 0004 )



        The Government Performance and Results Act of 1993 (GPRA), Public Law 103-62,
        requires the Social Security Administration (SSA) to develop performance indicators
        that assess the relevant service levels and outcomes of each program activity. GPRA
        also calls for a description of the means employed to verify and validate the measured
        values used to report on program performance. The objective of this audit was to
        assess the reliability of SSA's data used to measure the following Fiscal Year (FY) 1999
        GPRA performance indicator.

                 Percent of earnings posted correctly:
                 Percent without errors -99.0   (GPRA goal: 99.0 percent)

        BACKGROUND

        SSA's FY 1999 Annual Performance Plan (APP) contains performance indicators
        related to its strategic goal of making SSA program management the best in business,
        with zero tolerance for fraud and abuse. One of the performance indicators cited in the
        APP was to achieve a 99-percent accuracy rate on earnings items posted correctly. In
        the Agency's Revised Final Performance Plan for FY 2000, SSA changed the wording
        of this performance indicator. The performance indicator now reads, "percent of
        earnings posted correctly." SSA's basis for the change was to clarify what it had
        actually been measuring and continued to measure for FY 2000, namely, earnings
        dollars.

        The Office of Quality Assurance and Performance Assessment (OQA) annually reviews
        the accuracy of earnings posted to either the Master Earnings File (MEF) or the
        Earnings Suspense File (ESF). OQA measures SSA's accuracy in extracting individual
        earnings from the reports submitted by employers and self-employed individuals by
        comparing the reported earnings to earnings posted to the MEF and ESF. Accuracy is
        based on the correctness of the earnings information in the MEF and ESF when
compared to an individual's W-21 microfilm record. The final accuracy rate used in
SSA’s Accountability Report measures the percent of dollar value posted correctly to
individual accounts in the MEF.

The ESF primarily consists of wage items employers submitted to SSA that cannot be
posted to the MEF because the name/Social Security number do not match validation
criteria within SSA's systems. Between 1937 and 1998, the ESF grew to about
219 million reports of individual earnings with a value of about $291 billion.2 For
Tax Year (TY) 1998 alone, there were over 7 million earnings items with a value over
$31 billion in the ESF. Employer and employee errors in reporting wages are the main
causes of the ESF’s growth and size.

OQA draws its sample from employer-submitted wage reports (paper and magnetic
media W-2s) and self-employed individual's earnings for a given TY. OQA calculates
the accuracy of earnings posted in three ways: dollars posted correctly to the MEF,
dollars posted correctly to the ESF, and dollars posted correctly to the MEF/ESF. OQA
provides these three accuracy rates to the Office of Financial Policy and Operations
(OFPO). Using the most recent TY data, OFPO projects the MEF accuracy rate to
MEF-only earnings (total earnings less ESF earnings) and divides this new number by
the total earnings. These results are then reported in SSA’s Accountability Report and
the APP. At the time of our audit, OQA's most recent earnings data were for TY 1996.
In TY 1996, SSA processed approximately 240 million individual earnings reports.

RESULTS OF REVIEW

The data SSA used to report on the percentage of earnings posted correctly were
accurate and reliable. However, we did note several areas where SSA could improve
the definition of what was being measured as well as internal controls over the process
used to determine the accuracy rate. Specifically, we determined SSA used TY 1996
data to report FY 1999 performance. Although SSA may be using the best available
data in its reporting, the measure is misleading if the source of the data is not disclosed
since SSA is actually reporting on TY 1996 accuracy. We also identified undocumented
steps in SSA’s process, which showed improvements can be made to internal controls
over the process used to determine the accuracy rate.

PERFORMANCE MEASURE DATA WERE ACCURATE AND RELIABLE

We performed tests on the accuracy and reliability of the TY 1996 data and reviewed
SSA’s procedures to determine the accuracy rate reported. We found the data SSA
used in calculating the percentage of earnings posted correctly were accurate and
reliable. To test the performance measure data, we selected a random sample of

1
    Internal Revenue Service Form W-2, Wage and Tax Statement.
2
 Figures provided by the Office of System Design and Development. ESF figures for TY 1999 were not
completed at the time of our review.



                                                  2
300 items from OQA’s data base of 800 wage items taken from various wage report
media.3 OQA compared the information in its data base to the MEF and ESF to
determine whether wage items SSA received were correctly posted. SSA used the
results of the match to calculate an earnings posting accuracy rate for the TY 1996
data. We re-performed this match using our 300 sample items and projected our
sample results to the population to estimate the number of wage items SSA properly
processed. As a result, we estimate SSA staff properly processed 792 of the
800 sample wage items.

We also reviewed SSA’s selection of the 800 sample wage items from TY 1996 as well
as the projection of the MEF-only sample results to TY 1998 data. The resulting
projection provides the earnings accuracy rate reported to Congress. Our review of
both the sample selection and later projection found no material errors that would impair
the reliability of the earnings accuracy figure SSA reported.

SSA COULD PROVIDE MORE INFORMATION ON THE PERIOD BEING MEASURED

We determined SSA’s performance indicator for earnings accuracy did not disclose
sufficient information for the reader to understand what period was being represented in
the measure. GPRA requires Federal agencies to clearly define the components of
each performance measure so the measure reflects the intent of the established goal
and allows for the performance measure to be validated. Although we are not
questioning SSA's methodology for calculating the performance indicator, we do not
believe the performance indicator, as defined by SSA, fully informs the public.

In its FY 1999 Accountability Report, SSA did not disclose the baseline data used to
calculate this accuracy rate. The Accountability Report states "SSA met its FY 1999
goal of correctly posting 99 percent of TY 1998 earnings." However, SSA did not report
it used TY 1996 earnings data to arrive at the posting accuracy rates for all
three reporting media and then applied this TY 1996 accuracy rate to the TY 1998 data
to arrive at the FY 1999 earnings accuracy rate of 99 percent. As a result, SSA’s
FY 1999 earnings performance indicator did not represent earnings accuracy for
FY 1999.

When asked about the use of TY 1996 data, SSA staff stated they were unable to
calculate a more current accuracy rate. SSA cannot select sample cases for review
from each reporting medium until all wage reports and self-employment income
information have been (1) received and processed, (2) posted to the MEF and ESF,
(3) recorded on microfilm, and (4) filed in the Office of Central Operations. The last
reporting medium for TY 1997 was not available for sampling until February 2000.




3
    Paper W-2s, electronic magnetic media W-2s, and self-employment reports.



                                                    3
INTERNAL CONTROLS COULD BE BETTER MONITORED AND DOCUMENTED

Our review of internal controls for preparing the performance indicator found SSA
needed to strengthen monitoring and maintain additional documentation. GPRA
requires that agencies "describe the means to be used to verify and validate measured
values." Furthermore, Office of Management and Budget (OMB) Circular A-123,
Management Accountability and Control, requires "documentation for transactions,
management controls, and other significant events must be clear and readily available
for examination." OMB defines management controls as the organization, policies, and
procedures agencies use to reasonably ensure reliable and timely information is
obtained, maintained, reported and used for decisionmaking. Therefore, agencies must
establish a clear methodology for verifying performance measure values and retain the
appropriate documentation to enable an audit of their performance measure values
based on the methodology.

Our review of OQA's internal control monitoring found OQA did not review the earnings
data base for accuracy and reliability after all the wage report information had been
entered. In our sample of 300 earnings items, we found three dollar-entry mistakes and
three clerical mistakes in the TY 1996 data base. For example, an input error by
one analyst led to a $32,505.27 erroneous wage entry in the data base, when the actual
wage item was for $35,025.27. Although we determined these data input errors had no
effect on W-2 reported earnings or earnings posted to the MEF for TY 1996, they did
show that no control existed to verify the accuracy of the information in the earnings
data base.

We also found other areas where management controls and documentation could be
improved. For example, each year, OQA develops an earnings posting accuracy rate
based on a random sample of wage items. However, when we requested a copy of the
sampling plan to verify the sampling methodology OQA used in calculating the earnings
accuracy rate for the FY 1999 Accountability Report, we were told OQA did not have an
approved sampling plan. Although OQA maintained the program files and various
statistical spreadsheets to support the earnings accuracy rate calculations, a sampling
plan would have indicated SSA management’s certification that the estimation
methodology was technically sound and the plan should result in sufficient evidence to
meet the performance measure objective. Because there were insufficient
management controls and documentation, we were unable to determine whether SSA
management had reviewed and approved the underlying sampling methodology being
used for calculating the performance measure.

We also reviewed OQA’s policies and procedures related to validating the wage items
posted to the MEF and ESF. OQA's earnings accuracy methodology requires that a
Detailed Earnings Query (DEQY)4 be obtained for each earnings record contained in its
sample. However, we found no evidence that OQA reviewed a DEQY for

4
  The DEQY is an immediate response on-line query that displays requested earnings information and
related data. The data displayed on the DEQY printout is extracted from the MEF and/or the Employer
Identification File.


                                                  4
190 (63 percent) of the 300 items contained in the TY 1996 sample. Most of the
missing DEQYs represented electronic magnetic media and self-employment income
reports that were contained in the TY 1996 sample. When we asked about the missing
DEQY printouts, an OQA analyst told us this lack of documentation was a one-time
occurrence, and the policy is to maintain a printed copy of the DEQY when they took
their sample. Without a printed copy of the DEQY, there is no reliable means to check
the work for accuracy and completeness. In addition, such documentation provides an
audit trail for future reviews.

CONCLUSIONS AND RECOMMENDATIONS
We found the data SSA used to report on the percentage of earnings posted correctly
were accurate and reliable. However, our review showed that (1) SSA should disclose
the measure reports on TY 1996 data and (2) internal controls for preparing the
performance measure need improved guidelines and appropriate monitoring. GPRA
requires Federal agencies to clearly define the components of each performance
measure so the measure reflects the intent of the established goal and allows for the
performance measure to be validated. Furthermore, OMB Circular A-123 requires
agencies to maintain policies and procedures that reasonably ensure that reliable and
timely information is obtained, maintained, reported and used for decisionmaking.

To improve the usefulness of this performance measure as well as the underlying
support for reported results, we recommend that SSA take the following corrective
actions.

1. 	 Fully disclose the time period of the source data used in the computation of the
     accuracy rate in all future performance reports.

2. 	 Prepare and maintain an approved sample plan documenting the sampling
     methodology used for both reference and testing purposes.

3. 	 Prepare and maintain documentation of the performance measurement process,
     which could include a printed DEQY for each earnings record contained in the
     sample, and retain performance measure documentation for at least 3 years to allow
     for the timely verification of the performance measure values.

AGENCY COMMENTS
SSA agreed with our recommendations. In response to the Recommendation 1, SSA
agreed to fully disclose the time period of the source data used in computing the
accuracy rate in all future reports. Regarding Recommendation 2, SSA noted it has a
written sampling plan the OIG statistician agreed was statistically sound. Finally, SSA
agreed with Recommendation 3, and indicated that its policy is to obtain and retain
documentation of the process for at least 3 years.




                                             5
OFFICE OF THE INSPECTOR             GENERAL       RESPONSE

We commend SSA for its plans to Implement our recommendations. However, we
would like to re-emphasize our finding that, at the time of our review, SSA did not
provide an approved written sampling plan. Although we were able to determine how
the statistics were calculated after we reviewed assorted documentation, we continue to
believe an approved sampling plan is necessary .The sampling plan would have
indicated SSA management's certification that the estimation methodology was
technically sound and reliable, thereby resulting in sufficient evidence to meet the
performance measure objective. As we stated, because of insufficient management
controls and documentation, we were unable to determine whether SSA management
had reviewed and approved the underlying sampling methodology that was used to
calculate the performance measure.              ~~.-M~-                            -
                                              ~~:~~           ~:e~Jr.    -




                                           6
                              Appendices
APPENDIX A - Scope and Methodology


APPENDIX B - Acronyms


APPENDIX C – Agency Comments


APPENDIX D – OIG Contacts and Staff Acknowledgements

                                                                              Appendix A


Scope and Methodology
We conducted this review to assess the reliability of the Social Security Administration
(SSA) performance data used to measure the percent of earnings posted correctly.

To test the accuracy and reliability of SSA's performance data, we

•	 obtained three separate Tax Year 1996 data bases (one for each reporting medium)
   from the Office of Quality Assurance and Performance Assessment (OQA)
   containing the results of its annual review of 800 individual earnings reports
   representing $9,361,892 in paid Federal Insurance Contributions Act (FICA) taxes;1

•	 reviewed OQA's sampling methodology and, due to the lack of sampling
   documentation, performed alternate procedures by analyzing various program files
   and statistical spreadsheets;

•	 selected a random sample of 300 earnings reports, representing $3,440,892 in paid
   FICA taxes, from OQA’s data base;

•	 reviewed each W-2 microfilm document to verify the earnings dollars were posted to
   the OQA data base, and all other pertinent data were recorded correctly to the data
   base;

•	 determined whether the amount of FICA earnings agreed with the amount shown on
   the sample numberholder's Master Earnings File (MEF);

•	 determined whether the numberholder's earnings were shown on the Earnings
   Suspense File (ESF);

•	 reviewed sample item case files and all other pertinent documentation with OQA
   analysts and discussed the earnings record findings with them;

•	 re-calculated and verified earnings item output reported on the Epoxy Accounting
   Statistics Report;2 and




1
 OQA's sample of 800 reports includes 300 paper W-2 records, 250 electronic magnetic media records
and 250 self-employment income records.
2
 Epoxy is a system designed to provide management information from the Earnings Record Maintenance
System.


                                               A-1
•	 projected the results of our sample to the 800 earnings reports contained in OQA's
   data base population (shown in the table below). We calculated the noncompliant
   dollar amount by taking the associated dollar value of the error ($2,581), dividing this
   number by our sample dollar value ($3,440,892), and multiplying the result (.00075)
   by the total dollar value of the population ($9,361,892). We estimate the error value
   in this population to be $7,022.

        Earnings Accuracy Sample Results and Projections
 Population Size                                                              800

 Sample Size                                                                  300

                                    Attribute Projection
 Sample Records Not Fully Supported                                               3

 Projection of Records Not Fully Supported                                        8

 Projection Lower Limit                                                           3

 Projection Upper Limit                                                           21

Note: All precision figures were calculated at the 95-percent confidence level.

In conducting this audit, we also:

•	 reviewed SSA's Accountability Report for Fiscal Year (FY) 1999, Annual
   Performance Plan for FYs 1999 and 2000, and Revised Final Performance Plan for
   FY 2000 to determine the baseline data, definition, and data source for the
   performance indicator;

•	 reviewed pertinent Government Performance and Results Act and Office of
   Management and Budget laws and regulations;

•	 interviewed OQA policy and program staff to document the methodologies and
   procedures used to produce performance data for this indicator;

•	 interviewed OQA analysts to gain an understanding of the earnings posting process,
   the composition of OQA's data base, the statistical methods used, and other relevant
   matters; and

•	 reviewed Office of Financial Policy and Operations worksheets and calculations that
   (1) applied the OQA MEF accuracy rate to the MEF-only Tax Year 1998 earnings
   (total earnings less ESF earnings) and (2) divided this new number by total earnings.



                                                   A-2
We reviewed those internal controls related to our audit objective. We did not test the
information management systems to verify the completeness and accuracy of the data
base files SSA provided or verify the reliability of the Tax Year 1998 ESF earnings used
in the final projection. We conducted our work at the Mid-Atlantic program service
center in Philadelphia, Pennsylvania, and the OQA office in Woodlawn, Maryland. We
conducted the field work from November 1999 to October 2000. The entity audited was
OQA within the Office of the Deputy Commissioner for Finance, Assessment and
Management. We performed our audit in accordance with generally accepted
government auditing standards.




                                          A-3
                                                      Appendix B


Acronyms
APP    Annual Performance Plan

DEQY   Detailed Earnings Query

ESF    Earnings Suspense File

FICA   Federal Insurance Contributions Act

FY     Fiscal Year

GPRA   Government Performance and Results Act

MEF    Master Earnings File

OFPO   Office of Financial Policy and Operations

OMB    Office of Management and Budget

OQA    Office of Quality Assurance and Performance Assessment

SSA    Social Security Administration

TY     Tax Year

                   Appendix C


Agency Comments

                                                           ~..\. s£C',.
                                                                    VA        00
                                                      ~~    7(,   ~~   "T..

                                                             USA

                                                      "'()~~ 1111111.<-0<-
                                                             Jri;IJ"



                                          SOCIAL             SECURITY




MEMO RAND UM
       )

Date:                                                                              Refer To: SlJ-3
           April    10, 2001

To:        JamesG. Ruse, Jr.
           Inspector General

From:      Larry G. Massanari
           Acting

Subject:   Office         --General     Draft Report, "Performance Measure Review: Reliability of the
           Data Used to Measure Accuracy of Earnings Items Posted" (A-O3-00-10004)-INFORMATION

           Our comments on the subject draft report are attached. If your staff has any questions, they
           may contact Robert Berzanski on extension 52675.

           Attachment;
           SSA Response
COMMENTS OF THE SOCIAL SECURITY ADMINISTRATION (SSA) ON

THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT REPORT,

"PERFORMANCE MEASURE REVIEW: RELIABILITY OF THE DATA USED TO

MEASURE ACCURACY OF EARNINGS ITEMS POSTED" (A-03-00-10004)



We appreciate the opportunity to comment on the draft report. Following are our comments on
the recommendations.

OIG Recommendation 1

Fully disclose the time period of the source data used in the computation of the accuracy rate in
all future performance reports.

Comment

We agree. SSA will ensure that the recommendation to fully disclose the time period of the
source data used in the computation of the accuracy rate is adhered to in all future reports.

OIG Recommendation 2

Prepare and maintain an approved sample plan documenting the sampling methodology used for
both reference and testing purposes.

Comment

We agree. SSA does have a written sampling plan that OIG statisticians agreed was statistically
sound.

OIG Recommendation 3

Prepare and maintain documentation of the performance measurement process, that could
include a printed Detailed Earnings Query for each earnings record contained in the sample, and
retain performance measure documentation for at least three years to allow for the timely
verification of the performance measure values.

Comment

We agree. SSA retains documentation of the process for at least 3 years. SSA’s policy is to
obtain and retain the documentation; e.g., detailed earnings queries (DEQY) for each earnings
record in the sample used to compute the performance measure. As the report stated, the missing
documents (DEQYs) for part of the sample in the 1996 review was a “one-time occurrence.”




                                               C-2
                                                                       Appendix D


OIG Contacts and Staff Acknowledgements

OIG Contacts
   Kimberly A. Byrd, Acting Director, Operational Audit Division, (205) 801-1605

   Walter Bayer, Deputy Director, (215) 597-4080

Acknowledgments
In addition to those named above:

   Frank Trzaska, Lead Auditor

   Walter Mingo, Auditor

   Kimberly Beauchamp, Writer/Editor

   Brennan Kraje, Statistician

For additional copies of this report, please contact the Office of the Inspector General's
Public Affairs Specialist at (410) 966-5998. Refer to Common Identification Number
A-03-00-10004.
                                        DISTRIBUTION                SCHEDULE

                                                                                                        No. of
                                                                                                        CaRies

Commissioner        of Social Security                                                                         1
Management        Analysis      and Audit Program          Support    Staff, OFAM                         10

Inspector     General                                                                                          1
Assistant     Inspector     General     for Investigations                                                     1
Assistant     Inspector     General     for Executive      Operations                                          3
Assistant     Inspector     General     for Audit                                                              1
                                                       I
Deputy Assistant          Inspector     General     for Audit                                                  1
  Director,    Systems       Audit Division

  Director,    Financial     Management           and Performance       Monitoring     Audit Division          1
  Director,    Operational      Audit Division                                                                 1

  Director,    Disability    Program      Audit Division                                                       1

  Djrector,    Program       Benefits    Audit Division                                                        1

  Director,    General      Management        Audit Division

Issue Area Team Leaders                                                                                   25


Income Maintenance            Branch,     Office of Management           and Budget                            1


Chairman,      Committee       on Ways and Means                                                               1
Ranking     Minority    Member,       Committee       on Ways and Means                                        1
Chief of Staff, Committee             on Ways and Means                                                        1
Chairman,      Subcommittee           on Social Security                                                       2
Ranking     Minority    Member,       Subcommittee         on Social Security                                  1
Majority    Staff Director,     Subcommittee          on Social Security                                       2
Minority    Staff Director,     Subcommittee          on Social Security                                       2
Chairman,      Subcommittee           on Human       Resources                                                 1
Ranking     Minority    Member,       Subcommittee         on Human Resources

Chairman,      Committee       on Budget,      House of Representatives

Ranking     Minority    Member,       Committee       on Budget,      House of Representatives

Chairman,      Committee       on Government           Reform and Oversight

Ranking     Minority    Member,       Committee       on Government        Reform and Oversight

Chairman,      Committee       on Governmental           Affairs

Ranking     Minority    Member,       Committee       on Governmental       Affairs

                                                                                                       Page 2

Chairman,      Committee           on Appropriations,      House of Representatives                       1
Ranking Minority Member, Committee                      on Appropriations,
 House of Representatives                                                                                 1
Chairman, Subcommittee     on Labor, Health and Human Services,                          Education
 and Related Agencies, Committee on Appropriations,
  House of Representatives                                                                                1
Ranking Minority Member, Subcommittee   on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                                                 1
Chairman,      Committee           on Appropriations,      U.S. Senate                                    1
Ranking      Minority     Member,      Committee        on Appropriations,      U.S. Senate               1
Chairman, Subcommittee                on Labor, Health and Human Services, Education
 and Related Agencies,               Committee on Appropriations, U.S. Senate                             1
Ranking Minority Member, Subcommittee   on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                                              1
Chairman,      Committee           on Finance                                                             1
Ranking      Minority     Member,      Committee        on Finance                                        1
Chairman,      Subcommittee           on Social Security       and Family Policy                          1
Ranking      Minority     Member,      Subcommittee         on Social Security     and Family Policy      1
Chairman,      Senate      Special Committee            on Aging                                          1

Ranking      Minority     Member,      Senate   Special Committee            on Aging                     1

Vice Chairman, Subcommittee                  on Government         Management       Information
  and Technology                                                                                          1
President,     National     Council     of Social Security      Management        Associations,
  Incorporated                                                                                            1
Treasurer,     National      Council     of Social Security     Management        Associations,
  Incorporated                                                                                            1
Social Security         Advisory     Board                                                                1
AFGE General        Committee                                                                             9
President,     Federal      Managers       Association                                                    1
Regional     Public Affairs Officer                                                                       1


Total                                                                                                    97
                   Overview of the Office of the Inspector General


                                         Office of Audit
The Office of Audit (OA) conducts comprehensivefinancial and performance audits of the
Social Security Administration's (SSA) programs and makes recommendations to ensurethat
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assesswhether SSA' s financial statementsfairly present
the Agency's financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA' s programs. OA also conducts short-term
managementand program evaluations focused on issuesof concern to SSA, Congress,and the
generalpublic. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supportsthe Office of the Inspector General (OIG) by
providing information resourcemanagement;systemssecurity; and the coordination of budget,
procurement, telecommunications, facilities and equipment, and human resources. In addition,
this office is the focal point for the OIG's strategic planning function and the development and
implementation of performance measuresrequired by the Government Performance and Results
Act. OEO is also responsible for performing internal reviews to ensurethat OIG offices
nationwide hold themselves to the samerigorous standardsthat we expect from the Agency, as
well as conducting employee investigations within OIG. Finally, OEO administers OIG's public
affairs, media, and interagency activities and also communicates OIG's planned and current
activities and their results to the Commissioner and Congress.

                                    Office of Investigations
The Office of Investigations (01) conducts and coordinates investigative activity related to fraud.
waste, abuse,and mismanagementof SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representativepayees,third
parties, and by SSA employeesin the performance of their duties. Or also conductsjoint
investigations with other Federal, State,and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: l) statutes,regulations, legislation, and policy directives
governing the administration of SSA' s programs; 2) investigative procedures and techniques; and
3) legal implications and conclusions to be drawn from audit and investigative material produced
by the DIG. The Counsel's office also administers the civil monetary penalty program.
